No. 20A-128

In the
Supreme Court of the United States
JEFFERSON DUNN,
COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
v.

Applicant,

WILLIE B. SMITH III,

Respondent.
To the Honorable Clarence Thomas, Associate Justice of the United States
Supreme Court and Circuit Justice for the Eleventh Circuit
CERTIFICATE OF COMPLIANCE
I, Douglas R. McKusick, an attorney representing The Rutherford Institute as

amicus curiae, do hereby certify that the enclosed Motion for Leave to File Brief
as Amicus Curiae and Brief of The Rutherford Institute a s in Support of as

Amicus Curiae in Support of Respondent by the word count feature of MS Word,
and including footnotes but excluding those parts enumerated for exclusion under
the Rules of the Supreme Court of the United States, contains 1,488 words.

1

February 11, 2021
Respectfully submitted,

/s/ Douglas R. McKusick

D o u g l a s R . M c K us i c k
THE RUTHERFORD INSTITUTE
109 Deerwood Road
Charlottesville, VA 22911
(434) 978-3888
douglasm@rutherford.org

Counsel for Amicus Curiae

2

